e    -
              This case was brought to OIG by Drs.

                                               - -
                                                     - -
                                      CLOSEOUT FOR M91050021

                                                                    and 0two
     program officers, on April 26, 1991. They had received an April 8, 1991, letter from Dr.
                                            p the
                                                                                             ,   NSF

                                                                                      (the department) at
                                             (the university). In his letter, the complainant requested
     that his name be removed from proposal-(the                      proposal), entitled
                                                                   " for which he was designated as PI.
                                                                    complainant and from ~ r . l )




                                                                                     -
    -the         authorized institutional representative for the university, requesting that the proposal
     itself be withdrawn.

              The com lainant, a faculty member in the department at the university, alleged in his
     letter that Dr. &(the             first subject), then head of the department, had inserted false
     statements into the proposal. The complainant had reported his allegation, along with a variety
     of other complaints about the first subject's treatment of the complainant and management of
     the department, to ~r.-(the                   second subject), then Dean of the
    -at          the university. The complainant contacted NSF when, six months after he had made
     his complaints to the university, they remained unresolved. The complainant's letter to NSF
     prompted the university president, Dr. -(the                     third subject), to chastise the
     complainant for unprofessional conduct in raising this unsubstantiated allegation about false
     statements with NSF before the university had itself resolved the matter. At about the same
     time, the complainant filed a series of grievances on a variety of topics against the first and
     second subjects. The complainant's grievances were explored by Dr. -(the
     fourth subject), then Vice President for Academic Affairs at the university. The complainant
     alleged that the fourth subject's consideration of his grievances constituted a cover-up and
     involved collusion in efforts to retaliate against him.

            The university suspended its processing of the complainant's grievances when the
    complainant filed suit against the university. OIG suspended further inquiry into this matter
    until the law suit was resolved, because the pending law suit appeared likely to resolve
    outstanding factual issues and immediate action did not appear to be required to protect a vital
    NSF interest. The complainant's law suit remains pending more than five years after it was
    initiated.

           This case involved two allegations of misconduct in science. The first was that the first
    subject deliberately or recklessly inserted false statements into the proposal (the false


                                            page 1 of 2                               M91-21
                                 CLOSEOUT FOR M91050021

statements allegation). The second concerned alleged retaliation by the subjects against the
complainant for being a whistleblower (the retaliation allegation).

The False Statements Allegation

        A disinterested faculty committee at the university determined that the first subject
inserted false statements about minority student participation in ongoing activities into the
proposal without the complainant's knowledge. Although the first subject has maintained that
the statements were included as a result of a "misunderstanding" about whether planned
projects were already under way, the committee concluded that "there was reason to believe"
the first subject inserted the statements deliberately, and that, even if he did not, he "should
certainly have been aware" that some of the representations he inserted were false. The
university reprimanded the first subject in writing for his action.

        OIG concluded that it was unnecessary for NSF to consider further action concerning
this matter at this late date, over seven years after NSF had been notified of the first subject's
alleged misconduct. We noted that, even if the allegations were true and NSF had found that
the actions constituted misconduct in science under NSF's definition, any timely actions that
NSF would have taken regarding the subject would no longer be in effect.

The Retaliation Allegation

         The complainant cited numerous actions by the subjects that he believed constituted
retaliation against him. Among the most serious of these was an alleged retaliatory salary
reduction. Some of these allegations have been considered by the university's faculty
committee and by an investigator for the federal Equal Employment Opportunity Commission.
None has been sustained. Many of these allegations are at issue in the complainant's pending
law suit against the university. If, when the law suit is resolved, facts come to light that
suggest that NSF needs to take action concerning this matter, and might feasibly and fairly do
so after the passage of so much time, we will consider reopening this case.

        This inquiry is closed and, except as noted above, no further action will be taken in this
case.

cc: Integrity, IG




                                       page 2 of 2
